Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




  MEDICARE CONTRACTORS’
  PAYMENTS TO PROVIDERS
     IN JURISDICTION 11
FOR FULL VIALS OF HERCEPTIN
  WERE OFTEN INCORRECT


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General

                                                       August 2012
                                                      A-03-11-00013
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Herceptin (trastuzumab) is a Medicare-covered biological drug used to treat breast cancer that
has spread to other parts of the body. Herceptin comes in a multiuse vial containing
440 milligrams. A multiuse vial contains more than one dose of medication and is labeled as
such by the manufacturer. A vial of Herceptin reconstituted with bacteriostatic water is stable
for 28 days when stored properly. An entire multiuse vial of Herceptin represents 44 units for
billing Medicare. However, for multiuse vials, Medicare pays only for the amount administered
to a beneficiary and does not pay for any discarded amounts of the drug. Therefore, a payment
for an entire multiuse vial is likely to be incorrect. This audit is part of a nationwide review of
the drug Herceptin. The pilot of these reviews found that the Medicare contractor’s payments for
full vials of Herceptin were often incorrect.

Title XVIII of the Social Security Act established the Medicare program to provide health
insurance for people aged 65 and over and individuals with disabilities or permanent kidney
disease. Part B of the Medicare program provides supplementary medical insurance for medical
and other health services, including outpatient services such as the injection of drugs. The
Centers for Medicare & Medicaid Services (CMS), which administers the program, contracts
with Medicare contractors to process and pay Medicare claims submitted for outpatient services.
The Medicare contractors use the Fiscal Intermediary Standard System and CMS’s Common
Working File (CWF) to process claims. The CWF can detect certain improper payments during
prepayment validation.

Providers should use the appropriate Healthcare Common Procedure Coding System (HCPCS)
code for the drug administered and report units of service in multiples of the units shown in the
HCPCS narrative description. The Medicare program encourages physicians to schedule patients
in such a way that they can administer drugs most efficiently.

During our audit period (January 2008 through December 2010), Palmetto GBA, LLC
(Palmetto), was the Medicare contractor for North Carolina and South Carolina, and National
Government Services was the Medicare contractor for Virginia and West Virginia. Effective
May 16, 2011, Palmetto became the Medicare contractor for Jurisdiction 11 (North Carolina,
South Carolina, Virginia, and West Virginia) and assumed responsibility for claims formerly
paid by National Government Services for Virginia and West Virginia. Accordingly, we have
addressed our findings and recommendations to Palmetto for review and comment.

The Medicare contractors processed 14,112 line items totaling approximately $24.8 million for
Herceptin. Of these 14,112 line items, 2,507 line items totaling approximately $6.7 million had
unit counts in multiples of 44 (44, 88, 132 …) that represent billings equivalent to 1 or more full
multiuse vials of Herceptin. In this audit, we did not review entire claims; rather, we reviewed
specific line items within the claims.




                                                 i
OBJECTIVE

Our objective was to determine whether payments that the Medicare contractors made to
providers in Jurisdiction 11 for full vials of the drug Herceptin were correct.

SUMMARY OF FINDINGS

Most payments that the Medicare contractors made to providers in Jurisdiction 11 for one or
more full vials of Herceptin were incorrect. Of the 2,507 selected line items, 2,029 were
incorrect and included overpayments totaling $2,397,839 that the providers had not identified or
refunded by the beginning of our audit. Providers refunded overpayments on 138 line items
totaling $131,461 before our fieldwork. The remaining 340 line items were correct.

For the 2,029 incorrect line items that had not been refunded, providers:

   •   reported incorrect units of service on 1,985 line items, resulting in overpayments totaling
       $2,264,571 and

   •   did not provide supporting documentation for 44 line items, resulting in overpayments
       totaling $133,268.

The providers attributed the incorrect payments to chargemaster errors, clerical errors, and
billing systems that could not prevent or detect the incorrect billing of units of service. (A
provider’s chargemaster contains data on every chargeable item or procedure that the provider
offers, including a factor that converts a drug’s dosage to the number of units to bill and whether
to charge for waste.)

In several cases, providers could not store unused doses for later use because their pharmacies
incorrectly reconstituted the Herceptin using sterile water instead of bacteriostatic water. When
this occurred, the providers billed Medicare for the entire vial, including waste. The Medicare
contractors made these incorrect payments because neither the Fiscal Intermediary Standard
System nor the CWF had sufficient edits in place during our audit period to prevent or detect the
overpayments.

RECOMMENDATIONS

We recommend that Palmetto:

   •   recover the $2,397,839 in identified overpayments,

   •   implement a system edit that identifies for review line items for multiuse-vial drugs with
       units of service equivalent to one or more entire vials, and

   •   use the results of this audit in its provider education activities.




                                                  ii
PALMETTO GBA, LLC, COMMENTS

In written comments on our draft report, Palmetto concurred with our findings and
recommendations and described corrective actions that it had taken or planned to take.
Palmetto’s comments are included in their entirety as the Appendix.




                                               iii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION ...................................................................................................................... 1

          BACKGROUND .............................................................................................................. 1
              Medicare Contractors............................................................................ 1
              Claims for Outpatient Drugs and Biologicals ....................................................... 1
              Palmetto GBA, LLC, and National Government Services ................................... 2

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................ 2
               Objective ............................................................................................................... 2
               Scope ................................................................................................ 2
               Methodology ......................................................................................................... 3

FINDINGS AND RECOMMENDATIONS ............................................................................. 3

          FEDERAL REQUIREMENTS ............................................................................... 4

          MEDICARE BILLING FOR HERCEPTIN ..................................................................... 4

          OVERPAYMENTS OCCURRED ON MOST LINE ITEMS REVIEWED ................... 5
              Incorrect Number of Units of Service ................................................................... 5
              Unsupported Services ........................................................................................... 5

          CAUSES OF INCORRECT MEDICARE PAYMENTS ................................................. 5
               Provider Billing Errors .......................................................................................... 5
               Medicare Contractor System Edits ....................................................................... 6

          RECOMMENDATIONS .................................................................................................. 6

          PALMETTO GBA, LLC, COMMENTS.......................................................................... 6

APPENDIX

          PALMETTO GBA, LLC, COMMENTS




                                                                    iv
                                              INTRODUCTION

BACKGROUND

Herceptin 1 is a Medicare-covered biological drug used to treat breast cancer that has spread to
other parts of the body. Herceptin comes in a multiuse vial containing 440 milligrams. A
multiuse vial contains more than one dose of medication and is labeled as such by the
manufacturer. Multiuse vials are typically used for more than one date of service and can be
stored for up to 28 days. For multiuse vials, Medicare pays only for the amount administered to
a beneficiary and does not pay for any discarded amounts of the drug. Therefore, a payment for
an entire multiuse vial is likely to be incorrect. This audit is part of a nationwide review of the
drug Herceptin. The pilot of these reviews found that the Medicare contractor’s payments for
full vials of Herceptin were often incorrect. 2

Medicare Contractors

Title XVIII of the Social Security Act established the Medicare program to provide health
insurance for people aged 65 and over and individuals with disabilities or permanent kidney
disease. Part B of the Medicare program provides supplementary medical insurance for medical
and other health services, including outpatient services such as the injection of drugs. The
Centers for Medicare & Medicaid Services (CMS) administers the program.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted for outpatient services. 3 The Medicare contractors’ responsibilities include
determining reimbursement amounts, conducting reviews and audits, and safeguarding against
fraud and abuse. Federal guidance provides that the Medicare contractors must maintain
adequate internal controls over automatic data processing systems to prevent increased program
costs and erroneous or delayed payments. To process providers’ claims for outpatient services,
the Medicare contractors use the Fiscal Intermediary Standard System and CMS’s Common
Working File (CWF). The CWF can detect certain improper payments during prepayment
validation.

Claims for Outpatient Drugs and Biologicals

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains line items that detail each provided service. Providers must

1
 Herceptin is Genentech’s registered trademark for the biological drug trastuzumab. Biologicals are substances
made from a living organism or its products that are used to prevent, diagnose, treat, or relieve symptoms of a
disease.
2
    Report number A-05-10-00091, issued July 10, 2012.
3
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MAC) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. In this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or MAC, whichever is
applicable.


                                                         1
use the appropriate Healthcare Common Procedure Coding System (HCPCS) 4 code for drugs
administered and report units of service in multiples of the units shown in the HCPCS narrative
description. CMS encourages physicians to schedule patients in such a way that they can
administer drugs most efficiently. 5 Because providers must discard the remainder of a single-use
vial after administering a portion of it to a Medicare patient, the Medicare program pays for the
amount discarded as well as the drug administered. However, unlike single-use vials, multiuse
vials are not subject to payment for discarded amounts of the drug. Therefore, a Medicare
payment for an entire multiuse vial is likely to be an overpayment.

Palmetto GBA, LLC, and National Government Services

During our audit period (January 2008 through December 2010), Palmetto GBA, LLC
(Palmetto), was the Medicare contractor for North Carolina and South Carolina, and National
Government Services was the Medicare contractor for Virginia and West Virginia. Effective
May 16, 2011, Palmetto became the Medicare contractor for Jurisdiction 11 (North Carolina,
South Carolina, Virginia, and West Virginia) and assumed responsibility for claims formerly
paid by National Government Services for Virginia and West Virginia. Accordingly, we have
addressed our findings and recommendations to Palmetto for review and comment.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether payments that the Medicare contractors made to
providers in Jurisdiction 11 for full vials of the drug Herceptin were correct.

Scope

During our audit period, the Medicare contractors in Jurisdiction 11 processed 14,112 outpatient
Part B line items for Herceptin totaling $24,845,525. Of the 14,112 line items, 2,507 totaling
$6,701,936 had unit counts in multiples of 44 (44, 88, 132 …) that represent billings equivalent
to full multiuse vials of Herceptin. In this audit, we did not review entire claims; rather, we
reviewed specific line items within the claims.

We limited our review of the Medicare contractor’s internal controls to those that were
applicable to the selected payments because our objective did not require an understanding of all
internal controls over the submission and processing of claims. Our review allowed us to
establish reasonable assurance of the authenticity and accuracy of the data obtained from the
National Claims History file, but we did not assess the completeness of the file.

We conducted our fieldwork from October 2011 through January 2012 by contacting Palmetto in
Columbia, South Carolina, and 82 providers in Jurisdiction 11 that received the selected
Medicare payments during our audit period.


4
    HCPCS codes are used throughout the health care industry to standardize coding for medical procedures.
5
    CMS Medicare Claims Processing Manual, Pub. No. 100-04 (the Manual), chapter 17, section 40.


                                                          2
Methodology

To accomplish our objective, we:

   •   reviewed applicable Federal laws, regulations, and guidance;

   •   used CMS’s National Claims History file to identify outpatient line items for which
       payments were made for HCPCS code J9355 (Herceptin);

   •   identified the 2,507 line items in our scope that the Medicare contractors paid to
       82 providers;

   •   contacted the 82 providers that received Medicare payments for the selected line items to
       determine whether the information for the selected line items was correct and, if not, why
       the information was incorrect;

   •   reviewed documentation that the providers furnished to verify whether each selected line
       item was billed correctly; specifically, we reviewed documentation to support:

           o a physician’s order for the medication,

           o the administration of the medication for the amount ordered, and

           o the type of solution (bacteriostatic water for injection or sterile water for
             injection) used to reconstitute the Herceptin;

   •   coordinated the calculation of overpayments with the Medicare contractor; and

   •   discussed the results of our review with the Medicare contractor.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

Most payments that the Medicare contractors made to providers in Jurisdiction 11 for one or
more full vials of Herceptin were incorrect. Of the 2,507 selected line items, 2,029 were
incorrect and included overpayments totaling $2,397,839 that the providers had not identified or
refunded by the beginning of our audit. Providers refunded overpayments on 138 line items
totaling $131,461 before our fieldwork. The remaining 340 line items were correct.

For the 2,029 incorrect line items that had not been refunded, providers:

   •   reported incorrect units of service on 1,985 line items, resulting in overpayments totaling
       $2,264,571 and


                                                 3
    •   did not provide supporting documentation for 44 line items, resulting in overpayments
        totaling $133,268.

The providers attributed the incorrect payments to chargemaster 6 errors, clerical errors, and
billing systems that could not prevent or detect the incorrect billing of units of service. In several
cases, providers could not store unused doses for later use because their pharmacies incorrectly
reconstituted the Herceptin using sterile water instead of bacteriostatic water. When this
occurred, the providers billed Medicare for the entire vial, including waste. The Medicare
contractors made these incorrect payments because neither the Fiscal Intermediary Standard
System nor the CWF had sufficient edits in place during our audit period to prevent or detect the
overpayments.

FEDERAL REQUIREMENTS

Section 1833(e) of the Social Security Act states: “No payment shall be made to any provider of
services … unless there has been furnished such information as may be necessary in order to
determine the amounts due such provider … for the period with respect to which the amounts are
being paid ….”

CMS’s Medicare Claims Processing Manual, Pub. No. 100-04 (the Manual), chapter 23,
section 20.3, states: “providers must use HCPCS codes … for most outpatient services.”
Chapter 17, section 70, of the Manual states: “[w]here HCPCS is required, units are entered in
multiples of the units shown in the HCPCS narrative description. For example, if the description
for the code is 50 mg [milligrams], and 200 mg are provided, units are shown as 4 ….”

Chapter 17, section 40, of the Manual states: “[m]ulti-use vials are not subject to payment for
discarded amounts of drug or biological.” Further, chapter 1, section 80.3.2.2, of the Manual
states: “In order to be processed correctly and promptly, a bill must be completed accurately.”

MEDICARE BILLING FOR HERCEPTIN

The HCPCS code for Herceptin is J9355, with a narrative description of “injection, trastuzumab
10 mg [milligrams].” The manufacturer supplies the drug in a carton containing a multiuse vial
of 440 milligrams of Herceptin and one 20-milliliter vial of bacteriostatic water for injection
containing a solution of 1.1 percent of benzyl alcohol, as a preservative. An entire multiuse vial
of 440 milligrams of reconstituted Herceptin would be reported as 44 units for billing Medicare.
A vial of Herceptin reconstituted with bacteriostatic water is stable for 28 days when stored
properly. When a patient is allergic to benzyl alcohol, sterile water without a preservative should
be used and any unused portion of the mixture discarded.




6
  A provider’s chargemaster contains data on every chargeable item or procedure that the provider offers, including
a factor that converts a drug’s dosage to the number of units to bill and whether to charge for waste.


                                                         4
OVERPAYMENTS OCCURRED ON MOST LINE ITEMS REVIEWED

Incorrect Number of Units of Service

Fifty-one providers reported incorrect units of service on 1,985 line items, resulting in
overpayments totaling $2,264,571. Providers billed Medicare for 1 to 6 full vials of Herceptin
(44 units to 264 units of service), rather than for the amount of the drug actually administered.
For example:

    •    One provider administered 700 milligrams of Herceptin to a patient and billed for
         88 units of service (880 milligrams). Based on the HCPCS description of Herceptin
         (injection, trastuzumab, 10 milligrams), the correct number of units to bill for
         700 milligrams was 70. On 215 separate occasions, this type of error occurred, and as a
         result, the Medicare contractor paid the provider $586,772 when it should have paid
         $310,106, an overpayment of $276,666.

    •    Another provider administered 168 milligrams (17 units) 7 of Herceptin to a patient but
         incorrectly billed for 44 units of service (440 milligrams). The provider’s pharmacy
         incorrectly reconstituted Herceptin using sterile water instead of bacteriostatic water, and
         the provider billed Medicare for the full vial, including waste. On 66 separate occasions,
         that provider billed for 1 or 2 full vials of Herceptin (44 or 88 units of service) for each
         patient dose rather than the amount administered. As a result, the Medicare contractor
         paid the provider $182,344 when it should have paid $103,397, an overpayment of
         $78,947.

As a result of these unit-of-service errors, the Medicare contractors paid 51 providers a total of
$5,479,764 when it should have paid $3,215,193, an overpayment of $2,264,571.

Unsupported Services

Seventeen providers billed Medicare for 44 line items for which the providers did not provide
any documentation to support that a patient was seen or received treatment. The providers
agreed to cancel the claims associated with these line items or file adjusted claims and refund the
combined $133,268 in overpayments that they received.

CAUSES OF INCORRECT MEDICARE PAYMENTS

Provider Billing Errors

Providers attributed the incorrect billing to chargemaster errors, clerical errors, or billing systems
that could not prevent or detect the incorrect billing of units of service. In several cases, the
provider’s pharmacy incorrectly reconstituted Herceptin using sterile water instead of
bacteriostatic water. Because sterile water does not contain a preserving agent, the unused drug
could not be stored for later use. When this occurred, providers treated the multiuse vial of
Herceptin as a single-use vial and billed Medicare for the entire amount, including waste.

7
 If the drug dose used in the care of a patient is not a multiple of the HCPCS code dosage descriptor, the provider
rounds to the next highest unit based on the HCPCS long descriptor for the code to report the administered dose.


                                                          5
Medicare Contractor System Edits

The Medicare contractors made these incorrect payments because neither the Fiscal Intermediary
Standard System nor the CWF had sufficient edits in place during our audit period to prevent or
detect the overpayments. In effect, CMS relied on providers to notify the Medicare contractors
of incorrect payments and on beneficiaries to review their Medicare Summary Notice and
disclose any overpayments. 8

RECOMMENDATIONS

We recommend that Palmetto:

    •    recover the $2,397,839 in identified overpayments,

    •    implement a system edit that identifies for review line items for multiuse-vial drugs with
         units of service equivalent to one or more entire vials, and

    •    use the results of this audit in its provider education activities.

PALMETTO GBA, LLC, COMMENTS

In written comments on our draft report, Palmetto concurred with our findings and
recommendations and described corrective actions that it had taken or planned to take.
Palmetto’s comments are included in their entirety as the Appendix.




8
  The Medicare contractor sends a Medicare Summary Notice—an explanation of benefits—to the beneficiary after
the provider files a claim for services. The notice explains the services billed, the approved amount, the Medicare
payment, and the amount due from the beneficiary.


                                                          6
APPENDIX
                                                                                                            Page 1 of 3
                      APPENDIX: PALMETTO GBA, LLC, COMMENTS



                                                                                                            Walter J. Johnson
                                                                                             President and Chief Operating Officer



July 13, 2012



Mr. Stephen Virbitsky
Office of Inspector General
Office of Audit Services, Region III
Public Ledger Building, Suite 316
150 S. Independence Mall West
Philadelphia, PA 19106-3499

RE: Draft Report No. A-03-11-00013

Dear Mr. Virbitsky:

This letter is in response to your letter dated June 15, 2012, to Bruce Hughes, regarding the recent
Office of Inspector General (OIG) report entitled “Medicare Contractors’ Payments to Providers in
Jurisdiction 11 for Full Vials of Herceptin Were Often Incorrect”. We appreciate the feedback your
review provided and are committed to continuously improving our service to the Medicare
beneficiaries and providers we serve.

Palmetto GBA, LLC assumed full responsibility as the Medicare Administrative Contractor (MAC) for
Jurisdiction 11 effective June 2011. During the audit period of January 2008 through December 2010,
Palmetto GBA was the Medicare contractor for North Carolina and South Carolina, and National
Government Services (NGS) was the Medicare contractor for Virginia and West Virginia.

During the audit period approximately 2,029 line items were selected in which:

        (1)        providers reported incorrect units of service on 1,985 line items with unit counts
                   that represented full multiuse vials, resulting in overpayments totaling $2,264,571
                   and;

        (2)        providers did not submit supporting documentation for 44 line items resulting in
                   overpayments totaling $133,268.

In several cases, providers could not store unused doses for later use because of their pharmacies
incorrectly reconstituted the Herceptin using sterile water instead of bacteriostatic water.
Consequently, these providers billed Medicare for the entire vial, including waste. Because neither the
Fiscal Intermediary Standard System (FISS) nor the Common Working File (CWF) had sufficient edits
in place to prevent or detect the overpayments the following was recommended by your office:



                                  www.palmettogba.com Post Office Box 100134
                                         ISO 9001:2000 Columbia, South Carolina 29202-3134
                                                                                                  Page 2 of 3


Stephen Virbitsky
July 13, 2012
Page 2
         • Recover the $2,397,839 identified overpayments.

            Palmetto GBA Response:

            All claims identified in the audit were adjusted either by the provider or by Palmetto GBA.
            The identified overpayment of $2,397,839 was recovered in its entirety.

        •   Implement system edits that identifies for review line items for multiuse-vial drugs with
            units of service equivalent to one or more entire vials.

            Palmetto GBA Response:

            Palmetto GBA agrees with this recommendation. However, the Medicare Administrative
            Contractor’s (MAC’s) ability to implement local system edits is programmatically problematic
            and onerous due to the vast number of multiuse-vial drugs administered in the Medicare
            environment.

            In the alternative, Palmetto GBA recommends that the Centers of Medicare & Medicaid
            Services (CMS) consider this issue as a Medically Unlikely Edit (MUE) or a Maximum
            Allowed Units (MAUs), which would be an edit for all MACs in the shared system claims
            processing environment.

            Palmetto GBA will assess its ability and authority to implement a correct coding edit to
            specifically deny any claim for Herceptin indicating full vial use (44 units) for one date of
            service and/or a correct coding edit to suspend any claim for Herceptin over 44 units for
            medical necessity review.

        •   Use the results of this audit in its provider education activities.

            Palmetto GBA Response:

            Palmetto GBA will review educational material available on the Palmetto GBA Web site and
            republish and disseminate through the Palmetto GBA listserv educational material regarding
            proper billing of multi-dose vials of drugs and biologicals. Additionally, Palmetto GBA will
            use the specific problems outlined in the OIG report to create an additional educational article
            to stress the importance of accurate billing of drugs and biologicals. While correct coding has
            been and continues to be discussed in each educational session conducted by Palmetto GBA,
            we will communicate the results of this audit in our provider education conferences.




                                       www.palmettogba.com Post Office Box 100134
                                                   ISO 9001 Columbia, South Carolina 29202-3134
                                                                                                   Page 3 of 3


Stephen Virbitsky
July 13, 2012
Page 3

    In closing, Palmetto GBA understands the importance of correct coding, billing and payment activities.
    As part of its Program Integrity functions, Palmetto GBA will evaluate the necessity of a Local
    Coverage Determination (LCD) and/or a Billing and Coding Article for Herceptin and/or Multi-use
    Vial Drugs. While Palmetto GBA’s data analysis activities have not identified any aberrancies related
    to this issue to date which would rise to the level of progressive corrective action, we will conduct a
    focused, stratified data analysis on Herceptin going forward. Therefore, as we determine the feasibility
    of implementing a pre-pay edit for Herceptin, Palmetto GBA will conduct an annual data analysis
    report on this issue with the goal of conducting post-pay review activities assuming that it is not part of
    the audit plans of the Recovery Audit Contractors (RACs) or the Zone Program Integrity Contractors
    (ZPICs). If feasible, it is our intent to implement a Herceptin-specific prepay probe by no later than
    September 2012.

    Thank you for providing Palmetto GBA with the opportunity to offer feedback regarding your review.
    If you have any questions, please do not hesitate to contact me at 803-763-1176.

                                                      Sincerely




    cc:    Amy Drake, COR, CMS
           Sandra Brown, CMS
           Bruce Hughes, BCBSSC
           Ed Sanchez, Palmetto GBA
           Carol Sutton, Palmetto GBA




                                        www.palmettogba.com Post Office Box 100134
                                                    ISO 9001 Columbia, South Carolina 29202-3134
